U.S. PATENT AND
TRADEMARK OFFICE
USPTO Successfully
Implemented Most
Provisions of the America
Invents Act, but Several
Challenges Remain

FINAL REPORT OIG-13-032-A
SEPTEMBER 30, 2013



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation



FOR PUBLIC RELEASE
                                         Report In Brief                        SE P TE M BE R 3 0 , 2 0 1 3




Background                               U.S. PATENT AND TRADEMARK OFFICE
The President signed the Leahy–
Smith America Invents Act in             USPTO Successfully Implemented Most Provisions of the
September 2011. The AIA included         America Invents Act, but Several Challenges Remain
fundamental revisions to patent laws
and USPTO practices, such as             OIG-13-032-A
moving to a first-inventor-to-file
patent process, authorizing the          WHAT WE FOUND
agency to set and retain fees to         USPTO implemented most provisions of the American Invents Act (AIA) on time
ensure it has sufficient resources for
                                         but is overdue on several others. Specifically, we noticed significant problems with
its operations, and establishing
satellite offices.
                                         the planning and implementation of one IT system, the Patent Review Processing
                                         System, which was developed to meet AIA mandates and had cost overruns and
USPTO has stated these changes           limited functionality.
would help it process applications
faster, reduce the patent application    In addition, USPTO’s initial plan to assess training provided to approximately 8,000
backlog, increase patent quality         examiners on AIA-mandated changes was not sufficient and did not enable
through expedited patent challenges,     structured feedback from the examiners.
and improve examiner recruitment
and retention.                           Challenges also remain for the satellite office program. To increase the agency’s
                                         presence beyond USPTO’s Alexandria, Virginia, headquarters, the AIA required the
The new law, containing 37               agency to establish at least three satellite offices by September 16, 2014, subject to
provisions, mandated USPTO to
                                         available resources. The agency opened the first of these offices in Detroit in July
implement 24 rules, 7 reports, and 4
programs and the Small Business
                                         2012, but is unlikely to open the remaining offices by the September 16, 2014,
Administration and the Government        deadline. USPTO is required to report to Congress by September 30, 2014, on the
Accountability Office to issue one       effectiveness of these offices, and the delayed openings will affect the report.
report each by September 16, 2015.       Finally, we found that USPTO lacks implementation plans to complete the overall
Why We Did This Review                   AIA implementation report and operate two AIA-mandated programs, the Pro
                                         Bono and Diversity of Applicants programs.
Given the magnitude of changes
required by AIA, OIG audited             WHAT WE RECOMMENDED
USPTO’s effectiveness and progress
in implementing them by the law’s        We recommend that the Under Secretary of Commerce for Intellectual Property and
multiple deadlines. Our objectives       Director of the U.S. Patent and Trademark Office:
were to evaluate:                        1.   Strengthen project planning and execution between the Office of the Chief Information
 USPTO’s plans for training                  Officer and the Patent Trial and Review Board (PTAB), and with other USPTO units.
  employees and providing the IT         2.   Develop a multiyear plan that comprehensively addresses PTAB’s IT requirements to
  infrastructure needed to meet               support its expanded responsibilities under the AIA.
  AIA provisions.
                                         3.   Ensure the quality of processing first-inventor-to-file (FITF) applications by soliciting
 Whether USPTO’s expansion of                feedback from examiners after FITF training and after their first reviews of those
  satellite offices is cost-effective         applications, as well as by oversampling recently filed FITF applications.
  and within regulations.
                                         4.   Update Congress on the agency’s ability to establish satellite offices that meet AIA
 Whether USPTO is collecting                 provisions and provide a plan for more satellite offices as resources become available.
  necessary information for
  reporting on AIA to Congress by        5.   Strengthen management of the satellite office program to develop a consistent and
  September 2015.                             coordinated approach for establishing and operating satellite offices.

 Whether USPTO will be able to          6.   Prepare a comprehensive plan for issuing the overall AIA Implementation report to
  use lessons learned from                    include milestones for completing the remaining AIA reports and for operational
  implementing initial AIA                    oversight needed to carry out the Pro Bono and Diversity of Applicants programs.
  provisions when rolling out later
  provisions.
 U.S. DEPARTMENT OF COMMERCE                                                                                      OFFICE OF INSPECTOR GENERAL


Contents
Introduction .......................................................................................................................................................1
Findings and Recommendations ....................................................................................................................4
   I. A New IT System Developed to Meet AIA Mandates Had Cost Overruns and Limited
   Functionality ...................................................................................................................................................4
   Recommendations ........................................................................................................................................8
   II. USPTO’s Initial Plan to Assess Employee Training on AIA-mandated Changes Was Not
   Sufficient .........................................................................................................................................................9
   Recommendation ....................................................................................................................................... 11
   III. Significant Challenges Remain for the Satellite Office Program ................................................ 12
   Recommendations ..................................................................................................................................... 16
   IV. USPTO Lacks Implementation Plans to Complete the Overall AIA Implementation
   Report and Operate Two AIA-Mandated Programs ......................................................................... 18
   Recommendation ....................................................................................................................................... 20
Summary of Agency Response and OIG Comments ............................................................................. 21
Appendix A: Objectives, Scope, and Methodology ................................................................................ 22
Appendix B: Implementation of the America Invents Act Provisions as of July 16, 2013 ............. 24
Appendix C: Agency Response................................................................................................................... 30




                                                                                                                         COVER: Detail of fisheries pediment,
                                                                                                                U.S. Department of Commerce headquarters,
                                                                                                                        by sculptor James Earle Fraser, 1934




                                                                                                                                   FINAL REPORT OIG-13-032-A
    U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL


Introduction
The U.S. Patent and Trademark Office (USPTO) is the sole authority for reviewing and deciding
patent applications. Its nearly 8,000 examiners processed and issued more than 270,000 patents
in FY 2012. On September 16, 2011, the President signed the Leahy–Smith America Invents Act
(AIA, Public Law 112–29), representing the most fundamental change to the U.S. patent process
in over 50 years. The AIA mandated USPTO to implement 24 rules,1 7 reports, and 4 programs
by September 16, 2015 (see figure 1). The Small Business Administration (SBA) and the
Government Accountability Office (GAO) are responsible for issuing two reports (listed in
figure 1 as numbers 28 and 29, respectively).

                                           Figure 1. AIA Provisions

        Rules                                                 Reports
        1. Inter Partes Reexamination                         25. International Protection for Small
        2. Tax Strategies Are Deemed Within the Prior Art         Business
        3. Best Mode                                          26. Prior User Rights
        4. Human Organism Prohibition                         27. Genetic Testinga
        5. Virtual and False Marking                          28. Effects of First Inventor to File on
        6. Venue Change                                           Small Businessa c
        7. OED Statute of Limitations                         29. Patent Litigationa d
        8. Fee Setting Authority                              30. On Misconduct Before the Officeb
        9. Establishment of Micro Entity                      31. Virtual Markingb
        10. Prioritized Examination                           32. Satellite Officesb
        11. 15% Transition Surcharge                          33. AIA Implementationb
        12. Patent and Trademark Fee Reserve Fund
        13. Electronic Filing Incentive
        14. Inventor’s Oath or Declaration
        15. Third Party Submission of Prior Art in a Patent
            Application
        16. Supplemental Examination
        17. Citation of Prior Art in a Patent File
        18. Priority Examination for Important Technologies   Programs
        19. Inter Partes Review                               34. Pro Bono Program
        20. Post Grant Review                                 35. Diversity of Applicants Programa
        21. Transitional Program for Covered Business         36. Patent Ombudsman for Small
            Method Patents                                        Business Program
        22. First Inventor to File                            37. Open Satellite Officesb
        23. Derivation Proceedings
        24. Repeal of Statutory Invention Registration


     Source: USPTO
     a
       Implementation is overdue.
     b
       Implementation is not yet due.
     c
       Implementation is SBA’s responsibility.
     d
       Implementation is GAO’s responsibility.




1
 Some rules did not require formal rule-making procedures.


FINAL REPORT OIG-13-032-A                                                                                1
    U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL

Of the 37 AIA provisions, 28 were delivered on time. However, as shown in figure 1, 4
provisions are overdue and 5 were not yet due. Appendix B provides details about each
provision, including their due dates and implementation status.

The AIA included fundamental revisions to patent laws and USPTO practices, such as moving to
a “first inventor to file” (FITF) patent process to harmonize the U.S. system with the rest of the
world, granting the agency authority to set and retain fees to ensure it has sufficient resources
for its operations, and establishing satellite offices. The law also introduced new avenues for the
public to challenge granted patents and replaced previous options that were deemed inefficient.
With these and other changes, USPTO has stated it would be able to process applications
faster, reduce its patent backlog, increase patent quality through expedited patent challenges,
and improve examiner recruitment and retention.

Given the magnitude of these changes and as part of our FY 2013 audit and evaluation plan, we
conducted an audit of USPTO’s efforts to implement the provisions of the AIA. We sought to:

            Evaluate the effectiveness of USPTO’s plans and efforts to train employees and
             provide the necessary IT infrastructure to roll out AIA provisions by statutory
             deadlines.

            Review the extent to which USPTO is carrying out the expansion of satellite offices
             in a cost-effective manner and in accordance with relevant regulations.

            Review whether and to what extent USPTO is collecting the necessary information
             to provide Congress with an assessment of AIA implementation by September 2015,
             as mandated by the Act.

            Review whether and how USPTO will incorporate lessons learned from the
             implementation of initial AIA provisions during the rollout of later provisions, and
             evaluate the progress it has made in meeting congressionally mandated
             requirements.


In our examination, we reviewed relevant documents and interviewed appropriate agency
officials. We used USPTO data to review training plans and historical data on the filed
applications to assess whether the agency had adequately trained examiners, and we reviewed
project documentation on the rollout of the IT system used to process post-issuance
proceedings. We obtained documentation and interviewed managers to determine the status of
the 37 AIA provisions and if any lessons were learned during their implementation. In examining
the law’s impact on USPTO, we assessed whether USPTO’s accomplishments met the
legislation’s requirements. Finally, we reviewed federal and Department regulations, guidelines,
and procedures regarding USPTO’s satellite office expansion program and reviewed office space
requirements and human capital plans.2


2
 For more details on the scope and methodology of our audit work, see appendix A.


2                                                                                   FINAL REPORT OIG-13-032-A
U.S. DEPARTMENT OF COMMERCE                                       OFFICE OF INSPECTOR GENERAL

We found challenges to USPTO’s efforts to provide the IT infrastructure and train employees
as needed to apply AIA-prescribed changes to the patent process. Specifically, USPTO’s
implementation of an IT system to process AIA post-issuance proceedings was hampered by
several factors, including planning, risk management, requirements collection, and
communication between the project development team and the program unit. Also, USPTO’s
plans for assessing examiner training on the FITF rule were insufficient and could be
strengthened through enhanced feedback. Furthermore, we found that USPTO adhered to
relevant regulations in planning for four satellite offices but will have difficulty meeting two
provisions related to this effort. While the agency opened the first of four planned offices in
Detroit in July 2012, it is unlikely to open three offices by the deadline of September 16, 2014,
as required by the Act. In turn, USPTO stated that this also will impact the report to Congress
due shortly thereafter (on September 30, 2014), intended to assess the effectiveness of the four
offices. Finally, USPTO implemented the majority of the law’s provisions but did not have plans
to complete the overall AIA implementation report and to operate AIA-mandated programs
(see appendix B).




FINAL REPORT OIG-13-032-A                                                                       3
U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL


Findings and Recommendations
I. A New IT System Developed to Meet AIA Mandates Had Cost Overruns and
Limited Functionality
To implement the AIA, USPTO needed to
revise more than 15 IT systems. These                       New AIA proceedings
changes addressed functions such as public
                                                           processed through PRPS
searching, public filing, examiner research,
fee collection, and application in-
                                                     Inter Partes reviews – Someone other than
processing. Although many systems were               the patent holder petitions USPTO to cancel
affected by the AIA, we noticed significant          claim(s) 9 months after a patent or reissue
problems with the planning and                       patent is issued (or at any time for a first-to-
implementation of one IT system in                   invent patent). Inter partes reviews are also
particular: the Patent Review Processing             available at the termination of a post grant
System (PRPS).                                       review.

USPTO determined that the Patent Trial         Post Grant reviews – Someone other than
and Appeal Board (PTAB), the unit              the patent holder petitions USPTO to cancel
responsible for reviewing challenges to        patent claims within 9 months of a patent being
issued patents, required a new IT system to    issued or reissued. Post grant reviews are
process AIA post-issuance proceedings          generally available to applications subject to the
(see box). The agency acquired a               first-inventor-to-file rules.
commercial off-the-shelf (COTS) product
and initially planned to spend less than $2    Covered Business Method – Reviews that
million to develop this system. However,       use the same standards and procedures as a
by the end of April 2013 the system            post grant review except they apply to any
remained incomplete but costs had              business method patent for which a petition is
escalated to nearly $7 million. In its current filed between September 16, 2012, and
form, PRPS does not deliver on all of          September 16, 2020.
PTAB’s requirements. This project was
hampered by a number of problems—              Derivations – Applicants challenge a claimed
including a tight rule-making and              invention on the basis that an earlier
                                               application is derived from the inventor of the
implementation timeline—customer
                                               later filed application without authorization.
dissatisfaction over the COTS product, and
                                               Source: USPTO
project team turnover. We also found
significant deficiencies in planning that
compounded those problems. Deficiencies
included ineffective risk management, poor
requirements collection, and a lack of
communication between the Office of the
Chief Information Officer (OCIO) and PTAB at critical project stages.

PRPS was intended to implement post-issuance proceedings by allowing (1) parties to file post-
issuance petitions and other documents, and pay fees, (2) the public to view non-confidential


4                                                                                    FINAL REPORT OIG-13-032-A
    U.S. DEPARTMENT OF COMMERCE                                                         OFFICE OF INSPECTOR GENERAL

petitions and documents, (3) PTAB paralegals to review submissions, and (4) administrative
patent judges to manage cases in their dockets. Upon the AIA’s enactment on September 16,
2011, USPTO had one year to develop an IT solution for these proceedings. See figure 2 for
the timeline of milestones for that period.3

                  Figure 2. Key Milestones of the Post-Issuance Proceedings
                          in the First Year After Passage of the AIA

                                                                                                           9/16/2012
                                                        4/20/2012
                                                                                                        PRPS Launched &
                                                     Contract Awarded
                                                                                                   New Proceedings Take Effect
     9/16/2011                        2/9/2012                                              8/14/2012
    AIA Enacted               Notice of Proposed Rules                                      Final Rules




Source: USPTO data

PTAB had to publish proposed rules on how to process these proceedings; solicit and
incorporate public comments; and then issue final rules that were published in August 2012.
PRPS, which was developed as the rules were being drafted and finalized, became operational
one month later on September 16, 2012, but
with limited functionality that requires         Figure 3. Expected Cost of PRPS Project
additional resources to improve and
complete.                                            9
                                                              $ Millions




Because of problems with risk management,                                  8
                                                                                                                         ?
requirements collection, and                                               7
communication—compounded by a                                              6                                      $6.9
compressed system release schedule and                                     5                            $5.8
unexpected difficulties with the COTS                                      4
                                                                                                 $5.1
product—project costs have escalated
                                                                           3
significantly, and PTAB staff have had to
employ manual workarounds to carry out                                     2   $2.7 $2.7 $3.0
their work. Project costs have more than                                   1
doubled from the original baseline (from $2.7                              0
million to $6.9 million) to pay for additional
design work, testing, and defect corrections in
failed releases. Also, the project team said it
needs an additional $1.5 million to fulfill the                                     Baselines   Future Baseline
remaining requirements (see figure 3) but has
                                                            Source: USPTO data



3
 Derivation proceedings are not included in this timeline because they took effect on March 16, 2013, beyond the
one-year period after passage of the AIA.


FINAL REPORT OIG-13-032-A                                                                                                        5
    U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL

yet to set a date for completing PRPS.4 The team may need to revise the baseline after updating
the project plan. If the updated plan requires significant changes to the project, the cost could
increase beyond the additional $1.5 million.

In the time since PRPS was launched, PTAB’s paralegal staff and judges have had to maintain
spreadsheets to assign work and track the progress of petitions, which they thought would
have been handled automatically by the new system. In addition to manual processes, the
system has exhibited numerous flaws, such as assigning an incorrect filing date to petitions filed
in the evening, and users have a limited ability to correct records. Given the numerous
challenges with the system, PTAB has prioritized fixing defects that most directly affect the
public, delaying the implementation of internal functionality sought by PTAB staff.

Risk management practices. We found problems in risk planning during the development of
PRPS. Complex or expensive IT projects undertaken by federal agencies are subject to
additional oversight by Capital Planning and Investment Control (CPIC).5 According to
USPTO’s CPIC policies, IT investments greater than $2 million, as well as projects—regardless
of cost—that have external commitments and legislative mandates, are subject to the CPIC
process. Initially, PRPS did not meet the $2 million cost threshold but did meet the external
commitments and legislative mandates criteria that would have subjected it to the CPIC
process.6 USPTO met that criteria but chose not to apply CPIC because it deemed PRPS a low-
risk project overall. Once project costs began to increase in summer 2012, the CIO’s office
initiated and worked with the project team and PTAB to create a decision paper that aligned
the project with the CPIC process. However, with the project team correcting failed releases
and software flaws, the decision paper released in early April 2013 only documented the
project’s history and challenges and did not lay out the next steps.

Throughout the project’s development, USPTO continued to underestimate the project’s risk
and did not employ risk management practices as required by its internal policies. In January
2012, the team developed a charter outlining the project’s high-level requirements, scope, and
assumptions. The charter acknowledged that the underlying business rules would likely change
throughout the project because of rule-making. Yet rather than address the risks of a
compressed implementation window caused by concurrent rule-making, the project team
waited to draft a risk management plan and did not develop and maintain a list of project risks
until October 2012, one month after the system’s release. USPTO states its plan for managing
risk is intended to be a proactive tool throughout the lifecycle of the project. Continuous risk
management planning was particularly necessary because USPTO did not adhere to its original
risk mitigation strategy of delaying design work until requirements were finalized. This lack of
risk planning and mitigation exacerbated the problems of delivering a product that was already
facing a short implementation window and a fluid rule-making environment.

4
  After the November 2012 baseline, the project team developed another baseline that increased the expected
project cost to $7.8 million, but as of April 5, 2013, USPTO had funded the project at only $6.9 million. The CIO
is working on a plan for PRPS going forward, so costs may rise.
5
  The CPIC oversight process is mandated by the Clinger-Cohen Act (40 U.S.C., section 11101, et. seq.) and
includes checks to ensure that IT investments maximize value and manage risk.
6
  In December 2011, the project was estimated to cost less than $2 million because only minor modifications to the
COTS product were planned. After collecting high-level requirements, selecting a vendor, and conducting
additional planning, USPTO revised its cost estimate and established a baseline of $2.7 million in March 2012.


6                                                                                        FINAL REPORT OIG-13-032-A
    U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL



Requirements collection. We also found issues in the requirements collection process for
PRPS. The project team used several methodologies to collect detailed requirements, which
made it difficult and more expensive to validate and test the requirements prior to the system’s
launch. Our conclusion that requirements collection was lacking is supported by an August
2012 USPTO internal quality assessment. The current project manager also acknowledged that
USPTO did not have a complete list of documented requirements until after the project began.7
Such a list, which includes specific criteria for determining whether a requirement has been
met, is necessary for testing and is both a widely accepted project management practice and
USPTO IT policy.

Because its complexity was underestimated, the project also did not undergo a specific
management review of the requirements collection prior to the design phase. USPTO’s System
Development Lifecycle policies govern the processes and procedures for IT projects. One of
those policies allows project teams to combine the requirements and planning reviews if the
project is perceived as less rigorous or complex. The project team decided in December 2011
to combine the planning and requirements review, which was held in March 2012. However,
March 2012 was too early to check how well the detailed requirements were defined because
the team had not finished collecting them from system users. While interviewing OCIO and
PTAB staff, we received different opinions on how many project requirements had changed
between when the proposed rules were issued in February 2012 and the final rules were issued
in August 2012. This suggests a lack of communication between OCIO and PTAB, which could
have been helped by additional management oversight of the requirements collection.

OCIO and PTAB communication. We noted differences in opinion among OCIO and PTAB
staff about the level of effort required for completing PRPS. PTAB staff were unaware that
more resources would be needed beyond April 2013, while OCIO staff had not yet completed
their analysis of project options. A similar miscommunication occurred in 2012 when the
project team unexpectedly informed PTAB senior management that it needed to reallocate
funds from other PTAB projects to pay for the increasing costs of PRPS. PTAB had not worked
with OCIO on major projects prior to the AIA, unlike other offices that have working
relationships with OCIO. For example, the Office of Patent Administration works closely with
OCIO through its Office of Patent Information Management to develop requirements for a
complex IT project called Patent End to End.8 That working relationship has existed for several
years on Patent End to End and other IT projects. Because of AIA’s enactment, OCIO and
PTAB need to work closely to develop and implement PRPS. Although progress in some areas
has improved since October 2012, communication between OCIO and PTAB requires
continued management attention.




7
  There have been several changes to the project manager role, with the current manager in place since October
2012. Since October, the project team has been prioritizing PTAB needs and addressing a backlog of unmet needs
and defects.
8
  The Office of Patent Information Management manages the development and implementation of technology,
systems, tools, and information resources for the patents organization.


FINAL REPORT OIG-13-032-A                                                                                        7
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

We also found some improvements to the project since October 2012, including documenting
risks, consolidating requirements, and creating a central repository for acceptance criteria.
However, problems with planning persist. In November 2012, the CIO requested an
independent assessment of PRPS (completed in early January 2013) that identified 19 problems
with the project and recommended that USPTO develop a plan for long-term system
development beyond March 2013, when the then-current plan ended. Toward the conclusion of
our fieldwork, USPTO extended the plan an additional month and was working on a new plan
to address the project’s shortcomings.

Recommendations

We recommend that the Under Secretary of Commerce for Intellectual Property and Director
of the U.S. Patent and Trademark Office:

    1. Strengthen project planning and execution between OCIO and PTAB and, looking
       forward, with other USPTO units lacking a working relationship with the OCIO by
       adhering to USPTO’s System Development Lifecycle policies for risk management
       practices, requirements collection, and communications and reevaluating whether
       waivers to specific project requirements should apply if initial funding and scope
       assumptions change.

    2. Develop a multiyear plan that comprehensively addresses PTAB’s IT requirements,
       including internal IT staffing and training needs, to support its expanded responsibilities
       under the AIA.




8                                                                             FINAL REPORT OIG-13-032-A
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

II. USPTO’s Initial Plan to Assess Employee Training on AIA-mandated Changes
Was Not Sufficient

Perhaps the most significant change brought about by the AIA is replacing the first-to-invent
rule with the first-inventor-to-file (FITF) rule, bringing the United States in line with patent
systems globally. We focused our efforts on the training piece of this provision given the
challenge of providing consistent training to approximately 8,000 examiners. The new rules
redefined key concepts, such as prior art and obviousness, used to determine whether an
application is allowed. USPTO provided an introductory overview of AIA to examiners in
March and April 2013 through a lecture and two videos.

Due to the patent backlog, USPTO forecasted that most examiners would not receive an
application subject to the FITF rule before summer 2013. Therefore, the agency scheduled FITF
substantive examiner training for July 2013 and opted to provide just-in-time training between
March and July 2013 to any examiners who might receive an application subject to FITF rules in
the interim. This strategy appears to have succeeded given that application data for the month
following the rule’s effective date showed a low demand for prioritized examinations.

While the manner in which the training was provided appears to have worked well, we found
that USPTO initially lacked plans to effectively assess that training to ensure examiners are
ready to review applications subject to FITF rules. To evaluate the effectiveness of the March
2013 introductory trainings, USPTO tested the training on a small focus group of approximately
50 examiners. After the training, the 8,000 other examiners could only provide feedback by
submitting unstructured narrative comments to a
designated e-mail inbox. So it is unclear whether
most examiners felt they had received adequate            Flawed decisions by
training or required additional instruction.              examiners could result in
Additionally, USPTO management will have more             applicants filing post-grant
difficulty identifying trends in examiner readiness
from narrative responses. USPTO could have                reviews to contest a patent,
followed up the training with a simple survey and         costing $12,000 each. They
received far more responses than by the limited e-        could also cost large, small,
mailed feedback. USPTO explained its choice of a
more limited approach as not wanting examiners to and micro-entities $1,200,
feel compelled to fill out a survey and thus creating     $600, and $300, respectively,
employee relations issues.                                to file a first request for
GAO guidelines state that agencies should provide       continued examination to
employees with sufficient training to handle changes contest a rejected application.
in their responsibilities, and USPTO’s bargaining
agreement states that the agency must provide
examiners with appropriate classroom or on-the-job training to handle responsibilities that are
different from their training and background. If examiners are unprepared to review FITF
applications, USPTO could render flawed decisions on AIA cases, stifling innovation when
applications are erroneously rejected. And applicants could bear the burden of flawed decisions



FINAL REPORT OIG-13-032-A                                                                          9
    U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL

if their allowable patents must be extended through costly additional proceedings to review
decisions.

By not collecting structured feedback in March 2013, the FITF training team diverged from the
approach of some other USPTO offices that provide training and assess quality.9 For example,
USPTO’s Patent Academy, which provides training for new examiners and some ongoing
training for existing ones, regularly collects feedback through evaluation forms to assess
whether training objectives were met and to determine whether examiners improved their
knowledge or skills. We estimate that these evaluations would take 15 minutes to complete,
with examiners rating the training on an “agree/disagree” scale for eight factors. Examiners also
have the opportunity to comment about what they did or did not like about the training. This
feedback allows the academy to restructure examiner training as needed. As part of the patent
quality assurance program, USPTO conducts semiannual quality assurance surveys to receive
feedback from a random sample of patent examiners and supervisory patent examiners.
Examiners rate the training they received in the past quarter, which provides input on USPTO’s
overall quality assurance metric and future training plans. Although the next one is scheduled
for September 2013, the standard internal quality survey does not inquire about FITF training.
USPTO will not be able to use these results to inform its understanding of employee readiness
or identify additional training needs.

When we raised our concern to USPTO in early June 2013 about not collecting structured
feedback, the FITF training team decided to incorporate a formal evaluation form into the
substantive training that was scheduled to begin in July 2013. The form allows examiners to rate
the effectiveness of the training, allowing USPTO to conduct trend analysis that they could not
perform after the initial training in March 2013. This is a positive step in providing a more
comprehensive approach to evaluating examiner readiness to review FITF applications and
improving training, as needed.

Patent quality assurance staff told us in March 2013 that they did not have plans to review more
FITF applications than normal to identify potential examiner errors. However, they stated they
would review this issue more closely once more FITF applications are in examiners’ dockets.
While we acknowledge USPTO has time to make plans, the agency needs to review more FITF
applications than normal (that is, to oversample) to generate reliable estimates of patent quality
among the FITF applications reviewed, beginning several months after the July 2013 training.10
Without this approach, it may take several years before a sizable portion of FITF applications is
included in the quality assurance tests, which would inform the agency whether additional
examiner training is needed to improve examination quality.




9
 Different USPTO offices are responsible for providing examiner training. For example, targeted training on new
case law or legislative changes is typically provided by the Office of Patent Legal Administration. The Patent
Academy incorporates this information into the general training it provides to new examiners.
10
   USPTO generates monthly, quality metrics based on internal quality reviews. USPTO would still need to weight
the results of FITF and first-to-invent applications proportionally in overall estimates.


10                                                                                      FINAL REPORT OIG-13-032-A
U.S. DEPARTMENT OF COMMERCE                                       OFFICE OF INSPECTOR GENERAL

Recommendation

We recommend that the Under Secretary for Intellectual Property and Director of the U.S.
Patent and Trademark Office:

    3. Ensure the quality of FITF application processing by soliciting feedback from examiners
       after they have taken substantive FITF training and after they have reviewed their first
       FITF applications, and oversample recently filed FITF applications included in USPTO’s
       established quality assurance reviews.




FINAL REPORT OIG-13-032-A                                                                         11
U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

III. Significant Challenges Remain for the Satellite Office Program

To increase the agency’s presence beyond its Alexandria, Virginia, headquarters, the AIA
requires USPTO to establish at least three satellite offices by September 16, 2014, subject to
available resources. It mandates that one office be located in Detroit, while other sites be
chosen in consideration of geographic diversity, the availability of scientifically and technically
knowledgeable personnel, and local economic impact. Figure 4 shows the number of patents
granted for each state during FYs 2006-2010, the size of the patent attorney population
throughout the country, and the satellite office locations relative to those factors.

                      Figure 4. Number of Granted Patents and Size of the
                                  Patent Attorney Population

                                                         USPTO Office Selections




                                                                   Patent Attorneys
                                                            500       1,000             2,000


                Patents Granted
                  FY 2006-2010


     Source: USPTO data and OIG analysis

The attorney population and volume of patents granted are indicators of two factors that
USPTO took into consideration: the availability of scientifically and technically knowledgeable
personnel and the local economic impact.


12                                                                                 FINAL REPORT OIG-13-032-A
 U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

USPTO selected Dallas, Denver, Detroit, and the Silicon Valley for new satellite offices using
the criteria outlined in the AIA. The current satellite office team provided us with documented
criteria for the new satellite offices. However, members of the initial team are no longer with
the agency, and the current team could not describe the site selection process. Initial plans are
for each office to have 1 director, 5 managers, 100 examiners, 20 judges, and 9 support staff.11
In addition to the mandate to open at least three offices, the AIA requires USPTO to evaluate
those offices and provide a report to Congress by September 30, 2014. Table 1 shows the
status of each office at the end of our fieldwork.

                  Table 1. Status of Satellite Office Program as of April 30, 2013
                                                               Planned             Revised
                       Permanent          Permanent           Permanent           Permanent          Temporary
 Location                Facility           Facility            Facility            Facility         Office Space
                        Selected           Build-out          Occupancy           Occupancy          Established
                                                                 Datea              Date b
 Detroit                    Yes            Completed           July 1, 2012        July 1, 2012      Not applicable
 Denver                     Yes            Not started        Summer 2013           July 2014             Yes
 Dallas                     Yes            Suspended            Fall 2014           Unknown               Yes
 Silicon Valley             No             Not started        Unscheduled           Unknown               Yes
 Source: USPTO
 a
  Dates provided during a meeting with USPTO officials on November 8, 2012.
 b
   Dates provided during a meeting with USPTO officials on May 8, 2013.

During our audit, only the Detroit office was operating in a permanent facility; it had a
complement of 1 director,12 3 managers, 74 examiners, 12 administrative law judges, and 9
support staff.13 Permanent facilities were selected for Dallas and Denver, with the design phase
having begun for Denver; temporary office spaces in federally owned buildings were opened so
that judges could adjudicate patent appeals. For the fourth office, USPTO worked with the
General Services Administration (GSA)14 to begin soliciting bids for a permanent facility in
Silicon Valley and set up temporary office space for judges in nearby Menlo Park, California.
However on May 8, 2013, USPTO informed us it had suspended further planning and
construction of the Dallas and Silicon Valley offices. The agency is moving forward with the
Denver office, with the build-out beginning in summer 2013 and occupancy set for July 2014. As
of March 31, 2013, USPTO had spent approximately $14 million on its satellite office program.
It is unknown how much funding is needed to complete the remaining three planned offices
because the agency was able to provide us only with actual costs but not with a program
budget.

Once the city locations were selected, we found USPTO generally met the requirements for
satellite office space and complied with relevant regulations for soliciting and selecting its
offices. We examined requirements and lease documentation, and we interviewed GSA and
USPTO staff who worked on the solicitation for the four offices. We found that USPTO

11
   Support staff include 4 IT help-desk employees, 2 administrative assistants, 2 security guards, and 1 IT trainer.
12
   We refer to the office head in Detroit as a “director” based on our analysis of the position descriptions for the
head of a satellite office, although USPTO refers to that person internally as a “regional manager.”
13
   Personnel as of March 31, 2013.
14
   GSA is the federal agency responsible for procuring office space for government agencies.


FINAL REPORT OIG-13-032-A                                                                                              13
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

followed GSA procedure for solicitations and maintained good communications with GSA
throughout the solicitation process. GSA staff complimented USPTO’s efforts on defining
requirements and its responsiveness during the solicitation process. However, at the end of our
fieldwork USPTO informed us that the satellite office program in Dallas and Silicon Valley was
suspended due to budget constraints. As a result, USPTO management determined that the
agency is unlikely to meet the AIA’s deadline to establish satellite offices and will have
incomplete data to report on the offices’ effectiveness.

The intent of the satellite office program will not be reached by the provision’s
deadline. The Act requires USPTO to establish at least three satellite offices by September 16,
2014, subject to available resources. The Act outlines five purposes for these offices:

        Increase outreach activities.
        Enhance patent examiner retention.
        Improve patent examiner recruitment.
        Decrease the patent backlog.
        Improve patent examination quality.

At the start of our audit in November 2012, the agency planned to open its Dallas, Denver, and
Silicon Valley offices in intervals from mid-FY 2013 through FY 2014. USPTO officials told us
that scheduling office openings in this manner would allow limited human resources, IT, and
training professionals the appropriate amount of time to open the facilities. However, by March
2013, schedule delays meant the remaining three offices would open in the final 9 months of FY
2014. USPTO officials informed Congress on May 10, 2013, that three permanent facilities
would not be open by the AIA’s deadline. The agency informed us it was indefinitely suspending
construction of the permanent Dallas and Silicon Valley offices, as well as the hiring of new
patent examiners. The build-out of the permanent Denver office will continue, but it remains
unclear whether it will be staffed with examiners when it opens in July 2014. Given the schedule
slippage that occurred throughout our audit, we question whether the compressed schedule
would have been attainable given the logistics of opening each office.

USPTO officials believe establishing a presence by staffing temporary offices with judges, who
primarily adjudicate cases, satisfies the AIA’s requirement to establish satellite offices. However,
we question how a presence without patent examiners meets the intent of the satellite office
provision, particularly the goals of decreasing patent backlog and improving examiner retention
and recruitment. Even if it could hire new patent examiners at this time, USPTO believes it
would not be cost-effective to place examiners in temporary offices in Dallas, Denver, and
Silicon Valley, which would require significant infrastructure improvements to meet existing
examiner space requirements. Until examination staff is placed at permanent satellite offices,
this provision will remain largely unfulfilled.




14                                                                            FINAL REPORT OIG-13-032-A
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

Satellite office assessment to be impacted by delayed office openings. The AIA
requires USPTO to provide a report to Congress on the satellite offices by September 30,
2014. The report should address:

       rationale for selecting satellite office locations;
       progress in establishing satellite offices; and
       assessment on satellite office operations and whether they are achieving the purposes as
        stated in the Act.

With the indefinite suspension of the Dallas and Silicon Valley satellite offices, USPTO could still
address in its 2014 report how it chose the satellite locations and the progress of their
establishment. However, with only two offices open by the reporting deadline, the data
available will not be sufficient for a meaningful analysis of whether the satellite offices are
achieving the AIA goals. USPTO stated it would rely on anecdotal evidence to assess the
effectiveness of the Detroit and Denver offices, which would be a partial response to the
provision’s requirement.

Strong management is required to open and operate remaining offices. During most
of our fieldwork, the satellite office program operated without a single project manager driving
strategic and scheduling decisions. To open the Detroit office (which preceded our audit),
USPTO had a core team and single project manager who reported to the deputy under
secretary, maintained a schedule of activities, and was involved in planning and executing
decisions. Through attrition, the core team dissolved and the primary project manager
separated from the agency in December 2012. USPTO moved forward with the remaining
offices without a primary project manager or core team.

Currently, another employee facilitates meetings among USPTO business units on satellite
office issues but does not have the same planning and execution authority as the previous
project manager. Under the current structure:

       business units make decisions independently and maintain schedules for office opening
        activities pertaining to their respective operational activities;

       original facility requirements (developed for the Detroit office) have been replicated for
        remaining offices with virtually no changes, despite locality differences and knowledge
        gained from the Detroit office opening;

       satellite office managers report to the patents division; and

       planning for the evaluation of satellite offices has not begun (a report on the satellite
        offices is due September 30, 2014).

We found that the position descriptions of the two regional office directors in Detroit and
Silicon Valley are different and inconsistent with their current responsibilities. For example,
during our audit, the regional director of the Detroit office was a GS-15 management quality


FINAL REPORT OIG-13-032-A                                                                           15
 U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL

assurance specialist whose position description includes working with internal and external
customers to identify weaknesses in patent examination processes, and implementing and
monitoring examination quality improvements. The current director is a supervisory patent
examiner of the same grade whose stated position includes supervising and signing off on the
work of between 10 and 20 patent examiners within an art unit.15 The regional director of the
temporary office in Silicon Valley is a member of the Senior Executive Service whose stated
responsibilities are to review examiner performance; hire, recommend, and reassign staff; and,
if necessary, determine if art units should be reorganized.16

During our visit to the Detroit office, we found that the regional director does not perform
quality assurance work or directly supervise the patent examiners on site. Patent examiners,
regardless of where they work, are instead supervised by their respective supervisory patent
examiners and those supervisors report to their respective technology center directors. The
main responsibilities of the Detroit office director that we observed were day-to-day office
administration and outreach. In Silicon Valley, the director of the temporary office conducts
extensive outreach but does not manage or supervise patent examiners because the office has
none on staff.

We recognize that establishing the satellite office program is a work in progress and a major
effort of many USPTO sub-units. However, the position descriptions of the regional office
directors do not align with their current responsibilities and do not appear to be
commensurate with their grade levels given that examiner production and workflow is managed
from USPTO headquarters. In addition, the current organizational structure for the satellite
offices does not have a headquarters office responsible for coordinating the activities of the
regional directors that are in their position descriptions.

Recommendations

We recommend that the Under Secretary of Commerce for Intellectual Property and Director
of the U.S. Patent and Trademark Office:

     4. Provide Congress with an updated assessment of the agency’s ability, or not, to establish
        satellite offices that meet the provisions outlined in the AIA and provide a plan to
        establish its remaining satellite offices as resources become available.

     5. Strengthen the management of the satellite office program to develop a consistent and
        coordinated approach to establish and operate satellite offices by taking the following
        actions:

             a. Develop a consistent and centralized approach to effectively manage the planning
                and opening of currently planned satellite offices and assess whether this
                approach should continue if additional satellite offices are needed.


15
   An art unit is a grouping of patent examiners who specialize in a specific technology commonly referred to as an
“art.”
16
   According to USPTO, the satellite office directors will be Senior Executive Service positions.


16                                                                                         FINAL REPORT OIG-13-032-A
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

             b. Determine a standardized position description for the satellite office regional
                director whose documented responsibilities are commensurate with and reflect
                their responsibilities and grade level, or develop a single, centralized managerial
                function at USPTO headquarters responsible for operating and evaluating
                satellite offices.




FINAL REPORT OIG-13-032-A                                                                         17
 U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL

IV. USPTO Lacks Implementation Plans to Complete the Overall AIA
    Implementation Report and Operate Two AIA-Mandated Programs

The AIA’s 37 provisions comprise 24 rules, 9 reports, and 4 programs (see figure 5).17 Before
the AIA was enacted, USPTO assigned one coordinator to oversee implementation of all 37
provisions, and an individual manager for each provision.

                Figure 5. Summary of AIA Implementation as of July 16, 2013

             24 RULES                           9 REPORTS                           4 PROGRAMS

     • All 24 rules                    • 2 reports completed                   • 2 programs finalized
       implemented on time             • 3 reports overdue                     • 1 program overdue
                                       • 4 reports not yet due                 • 1 program not yet due
Source: USPTO

We found that USPTO had made significant progress on implementing these provisions but did
not have an overall plan or schedule to formulate the final AIA Implementation report due by
September 16, 2015. Management plans or schedules also were missing for two of the four
USPTO programs mandated by the Act. We outline the status of the 24 rules, 9 reports, and 4
programs below and in greater detail in appendix B.

AIA rules were issued on time. All 24 new rules to amend the patent process per the AIA
went into effect by their respective deadlines between September 16, 2011, and March 16,
2013. USPTO stated it did not have a documented process of recording lessons learned when
issuing initial AIA rules, but guidance on preparing and issuing rules was shared among
managers. Despite lacking a documented process, the agency emphasized having gained
knowledge and experience from prior rule-making efforts that preceded the Act. However, for
the fee-setting provision, USPTO established a working group to review lessons learned that
would help with future fee-setting rules.

Several AIA reports are overdue. Of the nine reports mandated by the AIA, two were issued
on time, three are overdue, and four are not yet due. USPTO issued the International Patent
Protection for Small Businesses report on January 14, 2012,18 and the Prior User Rights Defense
report on January 16, 2012. However, three reports are months past their AIA deadlines, two
of which were assigned to other agencies. Specifically:

          USPTO was required to issue the Genetic Diagnostic Testing report on June 16, 2012,
           but asked Congress for an extension on August 28, 2012. As of July 12, 2013, USPTO
           informed us the draft report was undergoing interagency review.




17
  SBA and GAO are responsible for two of the three overdue reports.
18
  USPTO has hired a contractor to address the report’s four recommendations.


18                                                                                   FINAL REPORT OIG-13-032-A
 U.S. DEPARTMENT OF COMMERCE                                       OFFICE OF INSPECTOR GENERAL

        SBA, in consultation with USPTO, was required to issue the Effects of First-Inventor-to-
         File on Small Businesses report on September 16, 2012. On July 16, 2013, USPTO
         informed us it had no further information on the status of this report.

        GAO was required to issue the Patent Litigation report on September 16, 2012. On July
         16, 2013, USPTO informed us that a draft report had been prepared and was
         undergoing review by GAO.

USPTO must issue four more reports—one due in September 2013 (Misconduct Before the
Office), two in September 2014 (Virtual Marking and Satellite Offices), and one in September
2015 (AIA Implementation). For the Virtual Marking report due September 16, 2014, USPTO
plans to begin work at the end of calendar year 2013 or in early 2014 if funding to hire a
contractor is available. But a schedule or plan has not been prepared for issuing this report
because USPTO needs to determine what information Congress requires. For information on
the satellite offices report, see section 3.

Finally, the AIA Implementation report, due September 16, 2015, will provide the status of the
37 provisions of the Act, including patent policies and practices of the federal government with
respect to patent rights, innovation in the United States, competitiveness of U.S. markets,
access by small businesses to investment capital, and other issues that the director considers
appropriate. USPTO stated that it had not finalized a plan or schedule to determine the analysis
and information needed for this report.

AIA programs lack planning documents. Of the four programs required by the AIA, USPTO
implemented two on time, is overdue on one, and has partially implemented another that is not
due yet.19 Specifically:

        USPTO implemented its Pro Bono program (to assist financially under-resourced
         inventors and small businesses) and Patent Ombudsman for Small Businesses program
         (to support patent filings from small-business concerns and independent inventors) in
         accordance with the Act’s statutory deadlines.

        USPTO claims it met the March 16, 2012, deadline to implement the Diversity of
         Applicants program by preparing an initial document outlining three tasks: (1) signing a
         memorandum of agreement with the Census Bureau to determine what diversity data
         can be obtained from Census records, (2) submitting a request for information to
         determine what personally identifying information should be collected, and (3)
         determining what steps USPTO must take to ensure it can accurately describe patent
         applicant diversity information consistent with the Act. However, we concluded USPTO
         had not implemented this program because none of these three tasks had been
         accomplished. Through interviews, we found USPTO did not plan to sign the
         memorandum or publish the request before late summer 2013. As of July 12, 2013, the
         three tasks had not been completed.



19
  For more information, see provisions 34-37 in appendix B.


FINAL REPORT OIG-13-032-A                                                                        19
U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

        The Act requires USPTO to establish at least three satellite offices by September 16,
         2014. The agency opened its first satellite office in Detroit in July 2012 and began the
         process of establishing three additional offices in Denver, Dallas, and the Silicon Valley.
         (See section 3 of this report for an in-depth discussion of the satellite office program.)

However, two of the programs (the Pro Bono and Diversity of Applicants programs) do not
have plans or schedules to manage ongoing program operations. The responsible USPTO
managers stated that implementation plans had not been prepared. After our fieldwork was
completed, USPTO provided a summary document indicating tasks it had completed and
planned to take for the Pro Bono program including preparing a charter for the program.

During our audit, USPTO staff had said it was premature to have an implementation plan for
issuing the AIA Implementation report, due September 16, 2015, but later informed us on June
13, 2013, that it had started developing a plan. As part of strategic planning efforts for new or
existing programs, GAO recommends that federal agencies should include implementation plans
to assist them in the transition from new provisions to operational phases. The plans should
document a project’s or program’s (1) responsibility for the overall and individual tasks, (2)
schedules, (3) tasks and milestones, (4) delivery dates and status, (5) performance measures, (6)
cost estimates, (7) resource estimates, (8) identified risks, (9) prioritized initiatives, and (10)
revisions of goals, if necessary. Without an implementation plan, USPTO cannot ensure the
information derived from several sources needed for the overall AIA Implementation report
will be collected, validated, and reviewed by the report deadline. For example, three reports
mandated by the Act are overdue and must be prepared by USPTO, GAO, and SBA, while
three other individual reports assigned to USPTO are not yet due. In addition, the Diversity of
Applicants program has not been implemented as of April 2013. Without timely information
from the AIA reports and individual program plans, the overall 2015 report could result in lack
of information to Congress.

Recommendation

We recommend that the Under Secretary of Commerce for Intellectual Property and Director
of the U.S. Patent and Trademark Office:

     6. Prepare a comprehensive implementation plan for the issuance of the overall AIA
         Implementation report, to include milestones for completing the six other remaining
         AIA reports, and individual implementation plans to address the operational oversight
         needed to carry out its Pro Bono and Diversity of Applicants programs.




20                                                                              FINAL REPORT OIG-13-032-A
U.S. DEPARTMENT OF COMMERCE                                     OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and OIG
Comments
In response to our draft report, the Under Secretary of Commerce for Intellectual Property
and Director of the U.S. Patent and Trademark Office agreed with all of our recommendations
and reports that the agency has begun taking initial steps to ensure timely implementation to
address our recommendations. We have included USPTO’s formal response as appendix C.
Earlier, we received technical comments to the draft report and made changes to the final
report, where appropriate.

We look forward to receiving USPTO’s action plan within 60 calendar days of the date of this
report.




FINAL REPORT OIG-13-032-A                                                                      21
U.S. DEPARTMENT OF COMMERCE                                        OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
The objectives of this audit were to (1) evaluate the effectiveness of USPTO’s plans and efforts
to train employees and provide the necessary IT infrastructure to roll out provisions of the
America Invents Act by statutory deadlines, (2) review whether and to what extent USPTO is
collecting the necessary information to provide Congress with an assessment of AIA
implementation by September 2015, as mandated by the Act, (3) review whether and how
USPTO will incorporate lessons learned from the implementation of initial AIA provisions
during the rollout of later provisions and evaluate the progress it has made in meeting
congressionally mandated requirements, and (4) review the extent to which USPTO is carrying
out the expansion of satellite offices in a cost-effective manner and in accordance with relevant
regulations. A comparison of specific budget proposals and execution plans for the satellite
offices was not within the scope of our audit; therefore, we were unable to confirm how
reported changes in available funds affected USPTO’s management decisions related to the
offices.

For the first objective, we focused our work on USPTO’s training plans for the FITF provision
and the rollout of an IT system to handle post-issuance proceedings. For the second objective,
we focused our work on the status of the 37 provisions of the AIA and whether the statutory
deadlines for the provisions had been met. For the third objective, we focused our work on
USPTO efforts to document and use lessons learned from issuing the initial AIA provisions to
help with issuing later AIA provisions. For the fourth objective, we focused our work on
reviewing the progress USPTO had made in establishing its four planned satellite offices.

To accomplish our objectives we:

          Interviewed USPTO managers responsible for the 37 AIA provisions, managers and
           staff overseeing the AIA training efforts and satellite office expansion, GSA and GSA
           OIG officials, and representatives of the Patent Office Professionals Association.

          Reviewed agency training plans, training slides, and historical data on the number of
           filings to determine whether USPTO had trained enough examiners to review FITF
           applications and whether USPTO had processes in place to evaluate the
           effectiveness of this training.

          Reviewed the PRPS project planning budget, implementation documentation, and an
           external assessment of the PRPS project.

          Obtained and reviewed all relevant agency documents to determine whether
           USPTO had met the statutory deadlines for the 37 AIA provisions and the progress
           made for the provisions not yet due.




22                                                                          FINAL REPORT OIG-13-032-A
 U.S. DEPARTMENT OF COMMERCE                                                 OFFICE OF INSPECTOR GENERAL

            Reviewed relevant GAO reports to gain an understanding for the need to have
             implementation plans to undertake new programs and guide operational initiatives.20

            Reviewed all relevant agency documents to document USPTO’s efforts to use
             lessons learned from issuing initial AIA provisions for issuing subsequent ones.

            Reviewed federal regulations, bureau requirements, guidelines, procedures, and
             requirements pertaining to USPTO’s plans to establish four planned satellite offices,
             including human capital plans, lease requirements, and office performance
             expectations.

            Conducted a site visit of the Detroit satellite office February 12-14, 2013, and
             interviewed office managers, patent examiners, administrative patent judges, and
             support staff.

The audit scope included a review of activities performed by USPTO to implement the AIA
since its enactment. We conducted fieldwork from October 2012 through May 2013 at USPTO
headquarters in Alexandria, Virginia, and at its satellite office in Detroit. The audit was
conducted under the authority of the Inspector General Act of 1978, as amended, and the
Department Organization Order 10-13. We conducted this audit in accordance with general
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions.




20
 The GAO reports included Federal Planning and Risk Management Could Further Facilitate the DTV Transition (GAO-
08-43, November 19, 2007), Army Needs to Finalize an Implementation Plan and Funding Strategy for Sustaining an
Operational Reserve Force (GAO-09-898, September 17, 2009), and Content and Coordination of Space Science and
Technology Strategy Need to Be More Robust (GAO-11-722, July 19, 2011).


FINAL REPORT OIG-13-032-A                                                                                      23
U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL


Appendix B: Implementation of the America
Invents Act Provisions as of July 16, 2013
Table B-1 provides the status of implementation of the 37 provisions mandated by the Leahy-
Smith America Invents Act (AIA). Each provision has a description,
due date status, and additional information on the provisions and              Legend
related Federal Register notices.                                           Met Deadline

Of the 24 rules, 9 reports, and 4 programs comprising the provisions,          Not Yet Due
28 were delivered on time, 4 are overdue, and 5 are not yet due.                Overdue
Provisions 28 and 29, which are overdue, are the responsibility of the
Small Business Administration and General Accountability Office, respectively.

                                 Table B-1: Status of AIA Provisions
                                                    Due       Additional Information on AIA Provisions
 #         Provision and Description
                                                    Date        and Related Federal Register Notices
 Rules
     Inter Partes Reexamination: A
     person could petition USPTO within one
     year of AIA’s passage to cancel as                       This provision was replaced by inter partes
 1                                                  9/16/11
     “unpatentable” one or more patent                        review on September 16, 2012 (see 19).
     claims on the basis of prior art and within
     9 months after a patent was granted.
     Tax Strategies Are Deemed Within
     the Prior Art: Examiners must deem                       According to the AIA, such inventions shall be
 2   insufficient any application or strategy for   9/16/11   deemed insufficient to differentiate a claimed
     reducing, avoiding, or deferring tax                     invention from the prior art.
     liability.
                                                              According to the AIA, applicants must
     Best Mode: Applicant failure to fully
                                                    9/16/11   document the best mode contemplated by the
 3   comply with the disclosure requirements
                                                              inventor of carrying out the invention at the
     could result in the denial of a patent.
                                                              time of filing.
     Human Organism Prohibition:                              According to the AIA, the provision does not
     USPTO may not issue a patent on a claim                  affect the validity of any patent issued on an
 4                                                  9/16/11
     directed to or encompassing a human                      application to which human organisms do not
     organism.                                                apply.
     Virtual and False Marking: Patent
     owners must place the words "patent" or
     "pat." on their patented products or post
                                                              Related to this provision, USPTO must provide
     publicly accessible Internet addresses
 5                                                  9/16/11   a report on virtual marking by September 16,
     displaying their patented products and
                                                              2014 (see 31).
     numbers. A person who has suffered a
     competitive injury due to false marking
     may file a civil action in district court.




24                                                                                    FINAL REPORT OIG-13-032-A
U.S. DEPARTMENT OF COMMERCE                                                 OFFICE OF INSPECTOR GENERAL

                                                     Due       Additional Information on AIA Provisions
 #          Provision and Description
                                                     Date        and Related Federal Register Notices
      Venue Change: The federal district
      court venue for certain USPTO
                                                               This provision took effect upon AIA’s
 6    proceedings changes from the District of      9/16/11
                                                               enactment.
      Columbia to the Eastern District of
      Virginia in Alexandria.
      OED Statute of Limitations:
      USPTO's Office of Enrollment and
      Discipline (OED) must commence a
                                                               Related to this provision, OED must provide a
      proceeding for misconduct before the
 7                                                  9/16/11    report on misconduct by September 16, 2013
      office no later than the earlier of either
                                                               (see 30).
      the date that is 10 years after the
      misconduct occurred or 1 year after it is
      made known to OED.
      Fee-Setting Authority: USPTO
      Director may set or adjust fees to                       USPTO's new fees went into effect on March
 8                                                  9/16/11
      recover the office's aggregate estimated                 19, 2013.
      costs.
                                                               Micro entity fees went into effect on March 19,
      Establishment of Micro Entity:
                                                               2013, with the issuance of USPTO's new fee
 9    Applicants meeting specific criteria may      9/16/11
                                                               schedule that provides micro entities with a 75
      be defined as "micro entities.”
                                                               percent reduction in fees.
      Prioritized Examination: Established a
      fee for applicants to request prioritized                USPTO issued a separate rule on December 19,
 10   examination of patent applications and        9/26/11    2011, for prioritized examination of requests
      receive final disposition within 12 months               for continued examination.
      on average.
      15% Transition Surcharge: USPTO
                                                               Implementation of USPTO's new fees on March
 11   placed a 15 percent surcharge on certain      9/26/11
                                                               19, 2013, eliminated this surcharge (see 8).
      patent fees.
      Patent and Trademark Fee Reserve                         According to the AIA, USPTO fees collected in
 12   Fund: Established a Patent and                10/1/11    excess of its appropriated amount shall be
      Trademark Fee Reserve Fund.                              deposited in the reserve fund.
      Electronic Filing Incentive:
                                                               Applicants are charged a $400 fee if they do not
 13   Established a fee for each application not    11/15/11
                                                               file electronically.
      filed by electronic means.
      Inventor's Oath or Declaration: Each                     According to the AIA, the oath or declaration
      inventor or joint inventor shall execute                 must be filed no later than the date on which
 14   an oath or declaration in connection with     9/16/12    the issue fee for the patent is paid and any
      the application claiming to be the original              willful false statement is punishable by fine or
      inventor or joint inventor.                              imprisonment.
      Third Party Submission of Prior Art
      in a Patent Application: AIA allows                      According to the AIA, a third party must submit
      any third party to submit any patent,                    documentation before (1) the earlier of the
 15   published patent application, or other        9/16/12    date of a notice of allowance or (2) the later of
      printed publication of potential relevance               six months after the date of patent publication
      to the examination of a patent                           or first rejection.
      application.




FINAL REPORT OIG-13-032-A                                                                                         25
U.S. DEPARTMENT OF COMMERCE                                                  OFFICE OF INSPECTOR GENERAL

                                                     Due       Additional Information on AIA Provisions
 #          Provision and Description
                                                     Date        and Related Federal Register Notices
      Supplemental Examination: A patent                       According to the AIA, USPTO has three
      owner may request supplemental                           months to determine whether the request for
 16   examination of a patent to consider,           9/16/12   supplemental examination has raised a
      reconsider, or correct information                       substantial new question of patentability, and if
      believed to be relevant to the patent.                   so, the Director shall order a reexamination.
                                                               According to the AIA, if the person citing the
      Citation of Prior Art in a Patent
                                                               prior art or written statements explains in
      File: Any person at any time may provide
                                                               writing the pertinence and manner of applying
      USPTO with prior art consisting of
 17                                                  9/16/12   the prior art or written statements to at least
      patents or printed publications believing
                                                               one patent claim, the citation of the prior art or
      to have a bearing on the patentability of a
                                                               written statements shall become a part of the
      patent claim.
                                                               official patent file.
      Priority Examination for Important
      Technologies: USPTO may prioritize
      examination of applications at the request               USPTO is exempt from recovering the
 18   of the patent applicant for products,          9/16/12   aggregate extra cost of providing the
      processes, or technologies that are                      prioritization of these patent applications.
      important to the national economy or
      national competitiveness.
      Inter Partes Review: A person who is
      not the owner of a patent may petition
      USPTO to cancel as unpatentable one or
                                                               According to the AIA, a person may file an inter
      more patent claims based on prior art
                                                               partes review after the later of (1) the date that
      consisting of patents or printed
 19                                                  9/16/12   is 9 months after a patent or patent reissue is
      publications. USPTO will authorize this
                                                               granted or (2) the termination date of a post
      review if the petitioner can demonstrate
                                                               grant review.
      a reasonable likelihood of prevailing with
      respect to at least one of the claims
      challenged in the petition.
      Post Grant Review: A person who is
      not the patent owner may petition
      USPTO to cancel as unpatentable one or
      more patent claims based on any ground
                                                               According to the AIA, a person may file a post
      that could be raised under 35 U.S.C. §
                                                               grant review no later than (1) the date that is 9
 20   282 (relating to invalidity of the patent or   9/16/12
                                                               months after the date of the grant of the patent
      any claim). USPTO will authorize a post
                                                               or (2) the issuance of a reissue patent.
      grant review if the petitioner can
      demonstrate that it is more likely than
      not at least one of the claims challenged
      in the petition is unpatentable.
      Transitional Program for Covered
      Business Method Patents: USPTO
      shall determine the validity of covered
      business method patents (patents claiming                There is a sunset provision that will repeal
 21                                                  9/16/12
      a method or corresponding apparatus for                  these regulations on September 16, 2020.
      performing data processing or other
      operations used for a financial product or
      service).




26                                                                                       FINAL REPORT OIG-13-032-A
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL

                                                       Due       Additional Information on AIA Provisions
 #          Provision and Description
                                                       Date        and Related Federal Register Notices
      First Inventor to File: Institutes the
      first inventor-to-file system replacing the
      first-to-invent system. Prior to AIA                       The first inventor to file receives an "effective
      issuance, USPTO would award the patent                     filing date" based on the application’s actual
 22                                                   3/16/13
      to an inventor who was first to conceive                   filing date or the filing date of an earlier
      and diligently put the invention into                      application if entitled to it.
      practice (even if the first inventor was
      not the first to file a patent application).
      Derivation Proceedings: The Patent
                                                                 According to the AIA, a petitioner may file a
      Trial and Appeal Board shall determine
                                                                 derivation proceeding only within the one-year
      whether an inventor in an earlier                          period beginning on the date of the first
 23   application derived the claimed invention       3/16/13
                                                                 publication of a claim to an invention that is the
      from an inventor named in the
                                                                 same or substantially the same as the earlier
      petitioner's application.                                  application's claim to the invention.
      Repeal of Statutory Invention
      Registration: Repeals Statutory
                                                                 USPTO publishes pending patent applications at
      Invention Registrations that allowed
 24                                                   3/16/13    18 months unless non-publication requests
      applicants to request during the pendency
                                                                 were filed by applicants.
      of the application the specification and
      drawings to be published.
 Reports
      International Patent Protections for
      Small Businesses Report: USPTO
      must document how to help small                            USPTO issued its report on January 14, 2012,
      businesses with international patent                       finding little evidence to support a loan or grant
 25   protection and whether a revolving fund         1/14/12    program to help defray the expenses of small
      loan program or grant program should be                    businesses seeking international patent
      established to help small businesses pay                   protection.
      the costs of filing, maintaining, and
      enforcing international patents.
                                                                 USPTO issued its report on January 16, 2012,
                                                                 stating that the prior user rights defense
                                                                 protects third parties, and are generally
      Prior User Rights Report: USPTO
                                                                 consistent with those of major trading partners,
      must document the operation of prior
                                                                 and need not be altered at this time. The report
 26   user rights in the United States, the           1/16/12
                                                                 also documented whether prior user rights
      European Union, Japan, Canada, and
                                                                 protect third parties who can demonstrate that
      Australia.
                                                                 they were commercially using the invention at
                                                                 least one year prior to the filing date of a patent
                                                                 application relative to such invention.
      Genetic Testing Report: USPTO must
                                                                 USPTO informed Congress on August 28, 2012,
      document the impact current exclusive          6/16/2012   that more time was needed to prepare the
 27   licensing and patents on genetic testing
                                                     OVERDUE     report. On July 12, 2013, USPTO informed us a
      activity have on the practice of medicine.
                                                                 draft report was undergoing interagency review.




FINAL REPORT OIG-13-032-A                                                                                             27
U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL

                                                       Due       Additional Information on AIA Provisions
 #          Provision and Description
                                                       Date        and Related Federal Register Notices
      Effects of First-Inventor-to-File on
      Small Business Report: The Small
                                                                 USPTO informed us on July 16, 2013, that it
      Business Administration in consultation
                                                     9/16/2012   had no further information from the Small
 28   with USPTO must document the effects
                                                     OVERDUE     Business Administration on the status of this
      on the small business community of
                                                                 report.
      converting from a first-to-invent system
      to a first-inventor-to-file one.
      Patent Litigation Report: The
      Government Accountability Office must
      document the consequences of litigation                    On July 16, 2013, USPTO informed us the
                                                     9/16/2012
 29   related to patent claims by non-practicing                 Government Accountability Office had
                                                     OVERDUE
      entities (e.g., companies that buy patents                 prepared a draft report for review.
      from other companies) or by patent
      assertion entities (e.g., universities).
      Report on Misconduct Before the
      Office: USPTO must provide Congress
                                                                 USPTO must issue a report on misconduct
      with a report of incidents made known to
 30                                                   9/16/13    incidents every two years; the first one is due
      USPTO that reflect substantial evidence
                                                                 on September 16, 2013.
      of misconduct by patent practitioners
      before the office.
      Virtual Marking Report: USPTO must
      document (1) the effectiveness of virtual
      marking or placing of patent information
      on the Internet versus the physical
      marking of patent information on
 31                                                   9/16/14    Report is due by September 16, 2014.
      patented products; (2) whether virtual
      marking has limited or improved the
      ability of the public to access information
      about patents, and (3) any legal issues
      arising from virtual marking.
      Satellite Offices Report: USPTO shall                      Report is due by September 30, 2014. Due to
      deliver a report on the selection,                         delays with office openings (see 37), USPTO
 32                                                   9/30/14
      progress, and effectiveness of its satellite               may not have sufficient data to provide a
      offices.                                                   comprehensive assessment.
      AIA Implementation Report: USPTO
      must document how the AIA provisions
      were implemented and other aspects of
      U.S. patent policies and practices with
 33                                                   9/16/15    Report is due by September 16, 2015.
      respect to patent rights, innovation in the
      U.S., competitiveness of U.S. markets, and
      access to capital by small businesses for
      investment.
 Programs
      Pro Bono Program: USPTO shall work
      with and support intellectual property
                                                                 Pilot program began in June 2011 with 4
      law associations to establish pro bono
 34                                                   9/16/11    regional programs established in 2012 and 12
      programs for financially under-resourced
                                                                 additional programs to be established in 2013.
      independent inventors and small
      businesses.




28                                                                                        FINAL REPORT OIG-13-032-A
U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL

                                                       Due       Additional Information on AIA Provisions
 #          Provision and Description
                                                       Date        and Related Federal Register Notices
      Diversity of Applicants Program:                           USPTO prepared a document with 3 planned
      USPTO shall establish methods for                          steps comprising its methodology for studying
                                                     3/16/2012
 35   studying the diversity of patent applicants                the diversity of patent applicants but none of
                                                     OVERDUE
      including applicants who are minorities,                   the steps had been completed as of July 12,
      women, or veterans.                                        2013.
      Patent Ombudsman for Small
      Businesses Program: USPTO shall
                                                                 The pilot patent ombudsman program began in
 36   establish a Patent Ombudsman Program            9/16/12
                                                                 April 2010.
      to assist the patent filings of small
      businesses and independent inventors.
      Open Satellite Offices: USPTO shall
                                                                 USPTO planned to open four satellite offices by
      establish not less than three satellite
 37                                                   9/16/14    September 16, 2014, but currently expects only
      offices within 3 years of the Act's passage,
                                                                 two offices to be operational by then.
      subject to available resources.
 Source: USPTO documentation and OIG analysis




FINAL REPORT OIG-13-032-A                                                                                          29
U.S. DEPARTMENT OF COMMERCE   OFFICE OF INSPECTOR GENERAL


Appendix C: Agency Response




30                                    FINAL REPORT OIG-13-032-A
U.S. DEPARTMENT OF COMMERCE   OFFICE OF INSPECTOR GENERAL




FINAL REPORT OIG-13-032-A                               31
U.S. DEPARTMENT OF COMMERCE   OFFICE OF INSPECTOR GENERAL




32                                    FINAL REPORT OIG-13-032-A
U.S. DEPARTMENT OF COMMERCE   OFFICE OF INSPECTOR GENERAL




FINAL REPORT OIG-13-032-A                               33
